                       U.S. Department of Agriculture

                          Office of Inspector General
                                    Southeast Region




            Audit Report

     Foreign Agricultural Service
Implementation of the Trade Title of the
2002 Farm Bill and the 2002 President’s
        Management Agenda




                                  Report 50601-12-At
                                         March 2007
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                        Washington, D.C. 20250




March 28, 2007


REPLY TO
ATTN OF:       50601-12-At

TO:            Michael W. Yost
               Administrator
               Foreign Agricultural Service

ATTN:          Robert D. Green
               Acting Director
               Compliance, Security and Emergency Planning Division
               Office of Administrative Operations

FROM:          Robert W. Young /s/
               Assistant Inspector General
                 for Audit

SUBJECT:       Foreign Agricultural Service (FAS) – Implementation of the Trade Title of the 2002
               Farm Bill and the 2002 President’s Management Agenda


This report presents the results of our audit of the FAS’ Implementation of the Trade Title of the
2002 Farm Bill and the 2002 President’s Management Agenda. Your March 5, 2007, written
response to the official draft report is included in its entirety as exhibit B, with excerpts and the
Office of Inspector General (OIG) position incorporated into the Findings and Recommendations
section of the report, where applicable.

We are unable to accept management decision on any of the report’s recommendations. We can
accept management decision once we have been provided the information as outlined in the
report sections, OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the corrective actions taken or planned, including timeframes, to address the
recommendations for which a management decision has not been reached. Please note that the
regulation requires management decisions to be reached on all recommendations within a
maximum of 6 months from report issuance.
Executive Summary
Foreign Agricultural Service Implementation of the Trade Title of the 2002 Farm Bill
and the 2002 President’s Management Agenda (Audit Report No. 50601-12-At)

Results in Brief     The 2002 Farm Bill and the 2002 President’s Management Agenda
                     established a number of new goals and requirements for the Foreign
                     Agricultural Service (FAS), the agency charged with coordinating the
                     U.S. Department of Agriculture’s (USDA) international activities. The Office
                     of Inspector General (OIG) initiated this review to determine the status of
                     FAS’ efforts to implement the 2002 Farm Bill amendments relating to the
                     agency’s food aid and trade programs and to evaluate FAS’ efforts to address
                     problems identified in food aid programs by the President’s Management
                     Agenda.

                     The 2002 Farm Bill’s Section on Trade contained 13 provisions affecting
                     FAS’ programs, including export credit guarantees, market development,
                     export enhancement, food aid development, technical barriers to trade, and
                     trade-related programs in other titles of the Bill. FAS documented the timely
                     completion of 10 of the 13 requirements by April 2003, only 1 year after the
                     bill passed (see exhibit A). However, we found that additional work is
                     necessary to comply with three of the bill’s requirements, as follows:

                     •   FAS has not developed a business process to ensure that the Global
                         Market Strategy requirements of the Farm Bill – to coordinate the
                         Department’s resources and programs with those of other Departments, to
                         identify opportunities for agricultural exports, and to remove trade
                         barriers – are being met on a global level. Instead, agency managers have
                         followed a strategy of supporting agricultural industry trade group
                         partners (referred to as “participants”) in implementing their individual
                         marketing strategies. Although FAS has implemented processes to review
                         and evaluate the marketing strategies submitted by individual program
                         participants, the agency has not implemented a business process to
                         integrate these into a focused global strategy that would allow FAS to
                         identify and react to changing trends in global markets. Between 1990 and
                         2005, the dollar value of U.S. exports rose by 39 percent; however, during
                         this same period, the nation’s market share of global agricultural exports
                         declined by 32 percent. At the same time, those of other exporting
                         nations such as China, Japan, and the European Union (EU) increased
                         significantly.

                     •   Although FAS officials believe they had met the Farm Bill requirement of
                         targeting 35 percent of their export credit guarantees to processed and
                         high-value products by fiscal year (FY) 2003, we found that the lack of a
                         single standardized definition to distinguish these from unprocessed
USDA/OIG-A/50601-12-At                                                                      Page i
                                            commodities resulted in the inconsistent classifications of products that
                                            received similar degrees of processing. Also, in some instances, existing
                                            guidance was not applied in a consistent manner to determine whether
                                            commodities should be classified as high-value, processed, or bulk.

                                       •    FAS also did not provide Congress with required annual reports on its
                                            support of high-value and processed products through the Foreign Market
                                            Development (FMD) Cooperator Program. As a result, there is reduced
                                            assurance that Congress’ mandate to promote the export of high-value and
                                            processed products is actually being fulfilled.

                                       The President’s Management Agenda, also issued in 2002, cited several
                                       problems in the implementation of the country’s food aid programs, including
                                       program duplication between FAS and the U.S. Agency for International
                                       Development (USAID), waste of donated food supplies, and excessive
                                       administrative and transportation costs. For FY 2004, the Office of
                                       Management and Budget (OMB) evaluated FAS’ and USAID’s food aid
                                       programs, concluding that FAS’ strategic planning and performance
                                       measures were inadequate. OMB concluded that coordination between the
                                       two agencies was needed on program performance measures, as well as on
                                       criteria for program evaluation and monitoring and determining eligibility for
                                       program participation. The Government Performance and Results Act
                                       (GPRA) requires agencies to set goals for program performance and to report
                                       accomplishments in relation to those goals.

                                       Since that time, FAS has improved its planning in the food aid programs.
                                       Agency officials developed listings of priority countries for both the Food for
                                       Progress and Food for Education Programs and began providing these to
                                       private voluntary organizations (PVO) 1 . FAS has also begun working more
                                       closely with USAID, USDA’s Economic Research Service, and other
                                       organizations as recommended in the agenda to develop better outcome-
                                       oriented performance measures, as well as an interagency Food Aid
                                       Information System to promote better coordination and reporting for its food
                                       aid programs. Finally, FAS now monitors food aid proposals from PVOs to
                                       ensure that these do not overlap with those of USAID. OMB repeated its
                                       review of FAS’ food aid programs as part of the FY 2006 budget process and
                                       upgraded FAS’ rating from inadequate to moderately effective. An FAS
                                       official stated that the agency’s implementation of a new performance
                                       measure – the Food Aid Targeting Effectiveness Ratio, which measures FAS’
                                       success in eliminating “food gaps” in targeted, needy countries — was
                                       largely responsible for the improved rating.

                                       However, this single performance measure does not assess FAS’ progress in
                                       meeting the goals of its varied programs, and the agency needs to continue to

1
    A PVO is a non-profit organization that operates food aid grant programs for USDA and other Departments in recipient countries.

USDA/OIG-A/50601-12-At                                                                                                                Page ii
                   work toward developing outcome-based performance measures to reflect its
                   accomplishments agencywide. Although both FAS and USAID have been
                   making efforts in this area, FAS officials stated that it is difficult to design
                   performance measures that can assess program outcomes such as changes in
                   the nutritional levels of program recipients. FAS is also in the process of
                   developing an automated system to accumulate, summarize, and report
                   program performance data that the performance measures would evaluate.
                   Until performance measures and tracking systems are fully implemented, the
                   agency’s reports under GPRA cannot provide meaningful assessments of
                   FAS’ progress in achieving USDA’s strategic goals for its international
                   activities.

Recommendations
in Brief           We recommend that FAS develop and implement business processes to
                   integrate the strategic information the agency currently possesses, including
                   the reviews and analyses now being performed of program participants’
                   marketing strategies, as a basis for formulating marketing strategies at a
                   worldwide level. We also recommend that FAS, in consultation with
                   Congress, analyze its overall marketing approach and revise its strategic
                   goals and export strategies as necessary to increase U.S. competitiveness in
                   world export markets.

                   We recommend that FAS review and clarify definitions to be used defining
                   which commodities should be classified as bulk or standard, high value, or
                   processed for purposes of export credit guarantees and other programs. In
                   addition, we recommend that FAS ensure that its progress in supporting high-
                   value and processed products through its FMD Cooperator Program is timely
                   reported to Congress as required in the Farm Bill.

                   Finally, we recommend that FAS complete and adopt uniform outcome-based
                   performance measures to assess whether its programs are achieving the
                   objectives established in their authorizing legislation, and to implement its
                   planned process for accumulating, summarizing, and reporting performance
                   data under GPRA.

                   We are not making recommendations related to biotechnology trade issues as
                   part of this audit. Findings and recommendations, if applicable, will be
                   reported under OIG Audit No. 50601-14-Te, “USDA's Role in the Export of
                   Genetically Engineered Agricultural Commodities”.

Agency Response    In their response to the official draft report dated March 5, 2007, FAS
                   officials expressed general disagreement with the conclusions contained in
                   Finding 1 of the report and with portions of Finding 2.

                   They cited a cost-benefit study commissioned by FAS, which concluded that
                   by 2008 the market development programs would enable U.S. agricultural
USDA/OIG-A/50601-12-At                                                                     Page iii
                   exports to reach $74.5 billion, versus $70.8 billion without the programs.
                   Officials noted that since the study, USDA had raised its FY 2007 export
                   forecast to a record $77 billion.

                   They also questioned OIG’s use of World Trade Organization (WTO) data in
                   comparing the U.S. agricultural market share to that of our trade competitors,
                   referring to this as an “apples to oranges” comparison.

                   Officials referred to OIG’s use of EU export values in comparison with those
                   of the United States as an “egregious error” because these figures included
                   intra-trade among EU member nations. They also stated that the EU had
                   “nearly doubled its size during the 21-year span identified by OIG, adding
                   results from major agricultural producers/exporters such as Poland and
                   Austria to its agricultural exports.” They further cited “market access
                   barriers” as a significant problem for U.S. exports and market share, as well
                   as other factors such as the emergence of new export competitors such as
                   Brazil which could “overshadow the real growth success that U.S.
                   agricultural exports have enjoyed even as the global export market
                   expanded.”

                   FAS’ response cited several “misunderstandings or misrepresentations” in
                   OIG’s description of the Unified Export Strategies (UES), in particular OIG’s
                   statements regarding the degree to which funding decisions are documented.
                   FAS contends that “all allocation determinations are based on both analytical
                   reviews and a competitive performance-based formula across divisions and
                   industry groups.” They also stated that while OIG acknowledged FAS’ efforts
                   to encourage more strategic planning on the part of its program participants,
                   the report “suggested that this concept was not being used uniformly across
                   divisions nor was there a specific process to ensure that the idea was being
                   applied in a consistent fashion.”

                   The response further cited Finding 2 of the report as “a final example of
                   misleading statements and conclusions.” FAS stated that “…in speculating
                   that FAS’ compliance with the Farm Bill’s mandate that 35 percent of credit
                   guarantees should be directed toward high-value and processed products, OIG
                   failed to properly reflect the realities of how credit guarantee allocations are
                   made, and failed to follow guidance that it requested from USDA’s Office of
                   General Counsel.”

                   In addition to these “general comments,” FAS officials responded
                   individually to each of the report’s recommendations. These responses are
                   detailed in the “Agency Response” section following each recommendation.

OIG Position       WTO data for 2005 was not available until December 2006. OIG has updated
                   all analyses in this report to reflect the most current world trade data
                   available. OIG does not question FAS’ position that the dollar value of U.S.
USDA/OIG-A/50601-12-At                                                                     Page iv
                   exports has risen during the period between 1990 and 2005. The U.S. dollar
                   exports are discussed in the report, and reflected in the table “U.S. Exports
                   and Share of Global Agricultural Markets” contained in Finding 1. Congress,
                   however, has expressed its intent beginning with the 1996 Farm Bill that an
                   increase in the nation’s market share of global agricultural exports is also a
                   goal, along with the dollar value of exports. In using export dollars as the
                   only benchmark, FAS officials have not presented a balanced assessment of
                   U.S. exports in the global market.

                   OIG is also aware of the cost-benefit study cited by FAS officials and its
                   conclusions that FAS’ export programs benefit both U.S. exports and the
                   agricultural sector as a whole. Our audit did not question these conclusions,
                   but instead questioned, in light of the continuing decline of the U.S. global
                   market share, whether FAS’ current strategic planning efforts should be
                   reassessed to ensure that export opportunities and trade barriers are effectively
                   identified and addressed on a global basis. The cost-benefit study did not
                   address this issue.

                   FAS officials criticized OIG’s use of statistical data provided by the WTO on
                   exports and world market shares. However, FAS adjusted its statistics to
                   exclude coffee, rubber, cocoa, and tea because these are not produced in the
                   United States. This adjustment ignores the fact that many other countries do
                   not export products produced by the United States. Regardless of the data
                   used, both the WTO and FAS statistics reflect the same trend of steadily
                   declining U.S. market share, even though the rate of decline is somewhat less
                   pronounced in FAS’ analysis (which reflects a drop of about 20 percent
                   between 1990 and 2005). The use of FAS’ analysis rather than that of the
                   WTO would not have materially affected our conclusions. Documentation
                   provided to us by FAS describes the U.S. market share as the lowest in
                   30 years, due to “over reliance on slow growth commodities, mature markets,
                   and rising competition.” (emphasis added)

                   FAS officials have also stated that our comparison of the U.S. market share to
                   that of the EU is invalid because of the increase in EU member nations and
                   the intra-trade between those member nations. However, the largest increase
                   in member nations did not occur until 2004, when 10 countries joined the
                   15 that were already in place. To address FAS’ concern that our comparison
                   with the EU was invalid, our report presents an analysis for the period 2000 -
                   2003 (WTO data for the EU was not available prior to 2000). EU exports
                   increased by 33 percent during this period while U.S. exports, by comparison,
                   rose only 7 percent. Regarding FAS’ concern with intra-trade between EU
                   member nations, it must be noted that the U.S.’ own statistics reflect trade
                   with nations with whom we have regional Free Trade Agreements. These
                   nations include Canada, Mexico, Guatemala, Honduras, El Salvador, the
                   Dominican Republic, Costa Rica, and Nicaragua.

USDA/OIG-A/50601-12-At                                                                       Page v
                   FAS cited various factors that tend to overshadow the real growth success of
                   U.S. exports, such as export subsidies, sanitary and phytosanitary issues, and
                   outbreaks of bovine spongiform encephalopathy (BSE) and avian influenza.
                   However, the United States is not the only country affected by these
                   problems. The EU was dramatically impacted by BSE before the United
                   States; avian influenza has become a global problem. Sanitary and
                   phytosanitary issues have replaced trade tariffs as the “new trade issues” for
                   many countries following the Uruguay Round and recent free trade
                   agreements. It should be noted that the 2002 Farm Bill states that one of the
                   three objectives of a global marketing strategy is to identify and address
                   barriers to trade. Some of these barriers, such as tariffs, cannot be addressed
                   by working through program participants but must instead be dealt with on a
                   government-to-government basis.

                   FAS was also concerned that OIG did not understand the UES review
                   process. OIG carefully considered the UES review process and discussed it in
                   detail with FAS division staff who conduct the reviews. The process was also
                   discussed with an Assistant Deputy Administrator with the Office of Trade
                   Programs. Although these officials provided evidence of reviews at the
                   division level, they could not provide documentation of the process that
                   occurs at higher levels, where the final funding decisions are made. Our
                   description of the planning process is based on the information and
                   documentation provided to us by FAS during the audit.

                   In our discussions on the issue of strategic planning, we acknowledge the
                   difficulties faced by FAS in dealing with trade barriers such as tariffs and
                   BSE. We also acknowledge the very real and substantive efforts that FAS has
                   made to address these concerns, as evidenced by the recent reorganization and
                   the various processes such as UES and the Country Strategy Statements that
                   the agency has implemented. However, both FAS and WTO analyses make it
                   clear that despite these efforts, the U.S. market share of global agricultural
                   exports has been in decline since the mid-1980s. Congress has made its intent
                   clear, beginning with the 1996 Farm Bill, that any FAS marketing strategy
                   must consider market share, as well as the dollar amount of annual exports, in
                   measuring the overall success of its export programs.

                   Regarding FAS’ objections to our finding on high-value and processed
                   products (Finding 2), FAS officials may have misunderstood our position on
                   this issue. As noted in the OIG Position section under Recommendation 3, we
                   did not question FAS’ method of allocating funds in its export credit
                   programs, other than to point out that the agency must comply with the
                   requirements of the 2002 Farm Bill. Rather, we raised the concern that FAS
                   officials have not applied clear or consistent definitions of high-value and
                   processed products within the export credit programs. As noted in our report,
                   FAS gave different classifications to products requiring similar degrees of
                   processing to be marketable (e.g., cotton and corn). Meanwhile, dissimilar
USDA/OIG-A/50601-12-At                                                                    Page vi
                   commodities (breeding swine and potatoes) were both classified as bulk
                   products in one year but as high-value products in another year. In their
                   response to Recommendation 3, FAS officials agreed with the need for clearer
                   definitions.

                   Based on FAS’ specific responses to our recommendations, we have not yet
                   reached management decision on any of the report recommendations.
                   Management decisions can be reached when FAS provides the information
                   specified in the report sections OIG Position. FAS’ response is included in its
                   entirety as exhibit B of the report.




USDA/OIG-A/50601-12-At                                                                   Page vii
Abbreviations Used in This Report

AMS            Aggregate Measurements of Support
APHIS          Animal and Plant Health Inspection Service
BRS            Biotechnology Regulatory Services
BSE            Bovine Spongiform Encephalopathy
CCC            Commodity Credit Corporation
CSS            Country Strategy Statements
EEP            Export Enhancement Program
ERS            Economic Research Service
EU             European Union
Farm Bill      Title III of the Agricultural Trade and Aid Section of the Farm Security and Rural
                  Investment Act of 2002
FAIS           Food Aid Information System
FAS            Foreign Agricultural Service
FFE            Food for Education
FFP            Food for Progress
FMD            Foreign Market Development
FY             Fiscal Year
GMS            Global Market Strategy
GPRA           Government Performance and Results Act of 1993
OGC            Office of the General Counsel
OIG            Office of Inspector General
OMB            Office of Management and Budget
PART           Program Assessment Rating Tool
P.L.           Public Law
PVO            Private Voluntary Organization
SPS            Sanitary and Phytosanitary
TASC           Technical Assistance for Specialty Crops
UES            Unified Export Strategies
USAID          U.S. Agency for International Development
USDA           U.S. Department of Agriculture
U.S.C.         United States Code
WTO            World Trade Organization




USDA/OIG-A/50601-12-At                                                                  Page viii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ....................................................................................................viii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

        Finding 1             FAS’ Emphasis on Industry Trade Group Partners’ Trade Strategies May
                              Not Be Effective in Improving U.S. Competitiveness in World Export
                              Markets.................................................................................................................... 5
                                  Recommendation 1 ........................................................................................ 11
                                  Recommendation 2 ........................................................................................ 12
        Finding 2             FAS Needs To Implement Consistent Definitions of High-Value and
                              Processed Products In Its Export Credit Programs ............................................... 14
                                  Recommendation 3 ........................................................................................ 17
                                  Recommendation 4 ........................................................................................ 18
        Finding 3             FAS Works to Improve Its Food Aid Performance Measures and
                              Performance Data Reporting, But Improvements Are Still Needed ..................... 19
                                  Recommendation 5 ........................................................................................ 22
                                  Recommendation 6 ........................................................................................ 22

Scope and Methodology........................................................................................................................ 24

Exhibit A – FAS Implementation of Requirements of FY 2002 Farm Bill ..................................... 26

Exhibit B – Agency Response............................................................................................................... 33




USDA/OIG-A/50601-12-At                                                                                                                         Page ix
Background and Objectives
Background                              The Foreign Agricultural Service (FAS) is the lead agency for the
                                        U.S. Department of Agriculture’s (USDA) international activities. Operating
                                        on a global basis, FAS supports three of USDA’s strategic objectives:
                                        (1) expand and maintain international export opportunities for U.S.
                                        agriculture, (2) support international economic development and trade
                                        capacity building, and (3) improve the global sanitary and phytosanitary
                                        (SPS) system to facilitate agricultural trade. FAS enhances economic
                                        opportunities for America’s agricultural producers through trade agreement
                                        negotiations and monitoring, the Foreign Market Development (FMD)
                                        Cooperator Program, and the Export Credit Guarantee programs. The agency
                                        supports economic development and trade capacity building in foreign
                                        countries through food aid, technical assistance, and training. Working with
                                        other countries and with international organizations, FAS encourages the
                                        development of transparent and science-based regulatory systems that avoid
                                        restricting trade while at the same time protecting animal and plant health.

                                        FAS conducts its activities and programs through its offices in Washington,
                                        D.C., at 80 overseas posts, and 16 agricultural trade offices. Those posts
                                        represent U.S. agricultural interests and provide reporting on agricultural
                                        policies, production, and trade for about 160 countries. FAS agricultural trade
                                        offices are located in key foreign trading centers and assist U.S. exporters,
                                        trade groups, and State export marketing officials in their trade promotion
                                        efforts. FAS has over 900 employees. For fiscal year (FY) 2005, FAS’ total
                                        program level for its international programs and activities, including salaries
                                        and expenses, was $5.4 billion. The same level of expenditure is estimated
                                        for 2006.

                                        FY 2002 Farm Bill Section on Trade

                                        The Farm Bill 2 was designed to develop and expand commercial outlets for
                                        U.S. commodities and to provide international food assistance. The bill
                                        affected key provisions of the following FAS programs: export credit
                                        guarantees, market development, export enhancement, food aid and
                                        development, technical barriers to trade, and trade-related programs in other
                                        titles of the bill. In addition, the bill established four new programs:

                                                    1. McGovern-Dole International Food for Education (FFE) and
                                                       Child Nutrition;

                                                    2. Biotechnology and Agricultural Trade;


2
    Title III, Trade, Farm Security and Rural Investment Act of 2002 (Public Law (P.L.) 107-171).

USDA/OIG-A/50601-12-At                                                                                         Page 1
                             3. Technical Assistance for Specialty Crops (TASC); and

                             4. Online Exporter Assistance Initiative.

                   2002 President’s Management Agenda

                   In FY 2002, the President issued a management agenda designed to improve
                   Government performance. One of its goals was to reform the Government’s
                   food aid programs to ensure that overseas food donation programs targeted
                   food aid to the genuinely hungry and avoided waste and adverse impacts. The
                   agenda cited several problems, including:

                         •   program duplication between USDA and the U.S. Agency for
                             International Development (USAID);

                         •   waste of Commodity Credit Corporation (CCC) donated food
                             supplies; and

                         •   excessive administration and transportation costs.

                   The agenda also included the integration of performance and budget
                   information as a government-wide management priority. Thus, for FY 2004,
                   the Office of Management and Budget (OMB) used its Program Assessment
                   Rating Tool (PART) to evaluate Federal programs during the budget
                   formulation process. The 2004 PART review concluded that FAS’ strategic
                   planning and performance measures for the food aid programs were
                   inadequate. It recommended that USDA develop performance measures that
                   link to long-term outcome goals, as well as to the agency’s strategic goals
                   and budget. In addition, the review affirmed the need for USDA and USAID
                   to coordinate on program performance measures, evaluation, monitoring, and
                   eligibility criteria. By 2006, OMB had conducted PART reviews of
                   793 Federal agency programs, including USDA food aid programs
                   implemented by FAS, to assess each agency’s program purpose and design,
                   strategic planning, program management, and results. The FY 2006 PART
                   review upgraded FAS’ rating to moderately effective because, in part, of the
                   agency’s work on a Food Aid Targeting Effectiveness Ratio.

Objectives         The Office of Inspector General (OIG) evaluated FAS’ efforts to:
                   (1) implement the 2002 Farm Bill amendments to existing food aid and trade
                   programs and establish newly authorized programs and (2) work with USAID
                   and other Departments and agencies to address problems identified in food
                   aid programs by the FY 2002 President’s Management Agenda and FY 2004
                   OMB PART review.

                   The Animal and Plant Health Inspection Service (APHIS) Trade Support
                   Team and Biotechnology Regulatory Services (BRS) staffs routinely interact

USDA/OIG-A/50601-12-At                                                                 Page 2
                   with FAS providing analysis, communication, and representational and
                   liaison services. Because of its technical expertise, APHIS plays an important
                   role in the global agricultural arena. Thus, we also evaluated the involvement
                   of APHIS officials in food aid issues and in the implementation of the
                   2002 Farm Bill requirements relating to technical and biotechnology
                   programs. This report contains no findings or recommendations related to
                   APHIS activities. OIG is conducting a separate review of FAS’ delegated
                   responsibilities for international trade in biotech commodities.

                   Exhibit A contains the results of our current evaluation.

                   See the Scope and Methodology section at the end of this report for details of
                   our audit methodology.




USDA/OIG-A/50601-12-At                                                                   Page 3
Findings and Recommendations
                   FAS has made considerable progress towards implementing the requirements
                   of the 2002 Farm Bill, providing evidence to document its timely completion
                   of 10 of the 13 requirements within a year of its passage (see exhibit A). FAS
                   has also taken steps to improve its strategic planning and performance
                   measures for its food aid programs as recommended by the President’s
                   Management Agenda and the OMB PART reviews. To focus more attention
                   on the world’s most needy countries, FAS prepared priority lists of needy
                   countries for its FFE and Food for Progress (FFP) programs and provided the
                   lists to private voluntary organizations (PVO) during its annual food aid
                   planning conferences in 2005 and 2006. The agency is working more closely
                   with USAID, USDA’s Economic Research Service (ERS), and other
                   organizations, as recommended in the agenda, to develop better outcome-
                   oriented performance measures for its food aid programs. FAS is also
                   coordinating with USAID on an interagency Food Aid Information System
                   (FAIS) with common data elements for better program coordination and
                   reporting.

                   However, we found that FAS still needs to take steps to fulfill the remaining
                   requirements of the Farm Bill. Specifically, FAS needs to:

                         •   implement a business process to analyze and prioritize its various
                             country and participant-oriented strategies into a comprehensive plan
                             for achieving the agency’s strategic goals;

                         •   seek clarification of the definitions of bulk/standard, high-value, and
                             processed products so that agency officials can accurately determine if
                             export credit guarantees for high-value and processed products meet
                             the 35-percent goal outlined by Congress; and

                         •   develop and implement outcome-based performance measures to
                             assess FAS’ accomplishments toward achieving the objectives
                             established by its authorizing legislation, and complete and implement
                             a system to accumulate and report data that will allow the agency and
                             Congress to assess agency progress in meeting program goals.




USDA/OIG-A/50601-12-At                                                                      Page 4
Finding 1                             FAS’ Emphasis on Industry Trade Group Partners’ Trade
                                      Strategies May Not Be Effective in Improving U.S.
                                      Competitiveness in World Export Markets

                                      Although the 2002 Farm Bill required FAS to prepare a Global Market
                                      Strategy (GMS) to increase the nation’s agricultural exports and facilitate
                                      coordination with other agencies and Departments, the agency has not
                                      developed a business process to fully accomplish this. FAS officials have
                                      implemented systems that allow them to access and provide program support
                                      for the export strategies of individual agricultural program participants and
                                      have begun requiring their foreign posts to provide standardized export
                                      strategies for selected countries. FAS officials do not believe that a central
                                      planning process or a formal GMS is necessary. It is not clear, though, how
                                      this focus on strategies for individual countries and program participants can
                                      provide effective coordination with other Departments or ensure that export
                                      opportunities and trade barriers are effectively identified and addressed on a
                                      global basis. Although the dollar value of U.S. exports rose by 39 percent
                                      between 1990 and 2005, larger export gains by foreign competitors have
                                      eroded the U.S.’ market share of global exports by 32 percent over the same
                                      period. We question whether FAS’ current strategic trade approach will be
                                      effective in addressing the Department’s legislative requirement of
                                      developing an export promotion strategy whose goals are to increase both the
                                      nation’s dollar exports and its global market share. Although agency officials
                                      have implemented various measures to encourage strategic planning by
                                      program participants and to evaluate their export strategies, FAS also needs
                                      to develop comprehensive strategies that can be implemented on a worldwide
                                      basis if these goals are to be reached or even to prevent the U.S. share of
                                      world agricultural markets from suffering further decline.

                                      In 2002, Congress passed legislation aimed at improving American
                                      agricultural producers’ competitive position in the global marketplace. The
                                      2002 Farm Bill required that FAS prepare a long-range agricultural trade
                                      strategy that would identify opportunities for increasing agricultural exports
                                      to overseas markets; ensure that the Department’s resources, programs, and
                                      policies are coordinated with those of other agencies; and remove barriers to
                                      overseas trade. The Bill required FAS to consult with congressional
                                      committees on the strategy in November of 2002 and every 2 years
                                      thereafter. 3

                                      The 2002 legislation built on the policies of the 1996 Farm Bill, 4 which
                                      established an “Agricultural Export Promotion Strategy” to take into account
                                      the new market opportunities for agricultural products resulting from the

3
    2002 Farm Bill, Section 3206, “GMS.”
4
    P.L. 104-127, Federal Agriculture Improvement and Reform Act of 1996.

USDA/OIG-A/50601-12-At                                                                                      Page 5
                                        North American Free Trade Agreement, the Uruguay Round Agreements,
                                        and increasing membership in the World Trade Organization (WTO). The
                                        goal of the strategy was to increase the value of U.S. agricultural exports each
                                        year at a faster rate than the rate of increase in the value of overall world
                                        export trade in agricultural products. This would be accomplished by
                                        encouraging the maintenance, development, and expansion of export markets
                                        for U.S. agricultural commodities and related products. The Secretary was
                                        required to annually identify as priorities those markets (1) in which imports
                                        of agricultural products showed the greatest potential for increase and (2) in
                                        which, with the assistance of Federal export promotion programs, exports of
                                        U.S. agricultural products showed the greatest potential for increase 5 . The
                                        requirements of the 1996 Farm Bill led FAS to establish, in its FY 2001
                                        through 2005 strategic plan, a measurable goal (subsequently rescinded by
                                        agency officials, as discussed below) to recapture by 2010 the 22 percent of
                                        world market share that the United States had held in 1984. In its 2003
                                        through 2007 plan, however, FAS dropped this goal and instead focused only
                                        on the dollar value of the nation’s agricultural exports as a measure of the
                                        success of its export promotion programs.

                                        Following the passage of the 2002 Farm Bill, FAS created a first draft of the
                                        GMS. As part of this, agency analysts prepared an analysis of the global
                                        marketing climate, the strengths and weaknesses of the U.S. agricultural
                                        marketing strategy for capitalizing on global market trends, and an
                                        assessment of how FAS resources should be redeployed to correct the
                                        nation’s declining market share. The draft GMS identified market access
                                        issues by region and by country, and recognized the need to build emerging
                                        markets and support high-value and processed products. In November 2002,
                                        the FAS Administrator testified before Congress on FAS’ efforts to complete
                                        the GMS.

                                        In 2002 and 2003, FAS provided drafts of its GMS to program participants
                                        and stakeholders for comment. However, the participants generally opposed
                                        implementation of the GMS because it emphasized the rising third world
                                        countries in Asia and the Western Hemisphere as the most promising markets
                                        for American exports. FAS officials stated that the participants preferred to
                                        continue dealing with stable, developed markets such as the European Union
                                        (EU) and Japan rather than the developing markets that were specified in the
                                        1996 Farm Bill. FAS was unable to complete the GMS and provide it by the
                                        next required consultation in November 2004, but officials made a second
                                        attempt to draft a GMS in February 2005. This document, which eliminated
                                        the detailed country/regional analyses and the identification of “best
                                        prospect” markets, remained in draft and was never completed.



5
    Title 7, United States Code (U.S.C.), Section 5603(d).

USDA/OIG-A/50601-12-At                                                                                          Page 6
                   We noted that, following the FAS Administrator’s testimony before Congress
                   in November 2002, there was no record that agency officials had consulted
                   with Congress on their implementation of the GMS as required in
                   Section 3206 of the Farm Bill. A senior official we interviewed stated that
                   agency officials did consult with Congress on an ongoing basis, but that there
                   was no documentation to show the nature of the discussions or of the
                   information provided to Congress.

                   FAS management officials stated that they view the GMS as an internal
                   agency working document only, and that FAS has no plans to complete or
                   issue it. FAS’ strategy has been to support the agricultural program
                   participants in implementing their own individual export strategies, rather
                   than engaging in the type of “central planning” envisioned in the draft GMS.
                   An official noted that a GMS would, once completed, be a static strategy that
                   could not keep up with rapidly changing market situations. Officials stated
                   that the agency’s Unified Export Strategies (UES), which incorporate the
                   strategies of the participants for their targeted markets, were dynamic and
                   continually updated to reflect current country conditions. As such, it was their
                   position that the UES performed the function of a GMS, and that this
                   strategic process fulfilled the requirement of the 2002 Farm Bill. We disagree
                   that a global strategic process would, or should, be static; since it would be
                   linked to the processes already in place with the UES and Country Strategy
                   Statements (CSS) described in the following paragraphs, it would adapt to
                   changing market conditions, as they do.

                   Unified Export Strategies

                   The UES system is an online application that allows program participants –
                   generally marketing associations for specific commodities - to annually
                   submit their individual marketing plans and their applications for FAS
                   program funding. FAS agricultural marketing specialists from each division
                   within the agency’s Office of Trade Programs, as well as country attachés
                   from the foreign posts, review the participants’ applications and make
                   funding recommendations based on ranking factors that help to identify the
                   most promising marketing proposals submitted to each division. These
                   recommendations are channeled up through the directors of each division to
                   the Deputy Administrator, where funding decisions are ultimately made.
                   Although the divisions document their analyses of the UES submitted by
                   each cooperator, the process above the division level is primarily conducted
                   on a verbal basis. Nor are funding decisions necessarily based on a
                   participant’s UES; one division’s recommendations to the Deputy
                   Administrator on the 2006 UES submissions stated that because of the need
                   to maintain existing funding for average and below average performers, there
                   was no opportunity to shift funds to the higher performing participants.



USDA/OIG-A/50601-12-At                                                                     Page 7
                   FAS has, in recent years, promoted the concept of Comprehensive Industry
                   Strategic Planning, which encourages program participants to engage in
                   strategic planning processes when formulating their UES each year. An
                   official we interviewed also stated that, in some instances, agricultural
                   marketing specialists have worked with participants to evaluate the specifics
                   of their planning process. This would include a determination of whether the
                   participant had accurately gauged existing market conditions and identified
                   promising future markets for their commodities. However, no specific
                   process has been implemented to perform this function routinely throughout
                   the various divisions, and this would not necessarily affect funding decisions.

                   Although we agree that the UES system facilitates the funding application
                   process for both participants and FAS’ agricultural marketing staffs, they are
                   not routinely reviewed or analyzed above the division level. An FAS official
                   noted also that each division is allocated a share of marketing funds before
                   the UES are analyzed. As a result, other than the review by the Deputy
                   Administrator, there is no process in place above the division level to analyze
                   and compare the various marketing strategies to identify those whose support
                   would most benefit the country’s overall agricultural export levels.

                   Country Strategy Statements

                   In addition to developing the UES system, FAS officials also recognized that
                   changing world market conditions necessitated a fundamental review of the
                   agency’s organization and functions. In 2004, therefore, agency officials
                   began work on a reorganization plan which was approved on August 30,
                   2006. Under this plan, the agency has been aligned around three main
                   functions – Policy, Program, and Operational Support. Among the benefits
                   the reorganization is expected to achieve are (1) more effective support for
                   negotiation and enforcement of trade agreements, (2) greater focus on
                   technical barriers to agricultural trade, (3) better coordination of USDA
                   issues and activities with foreign country governments, and (4) more
                   proactive representation of U.S. agricultural interests in international
                   organizations.

                   As the reorganization is phased in, the agency attachés assigned to foreign
                   posts will be required to submit annual CSS on or about July 31 of each year
                   for countries in each post’s area of responsibility. The CSSs are intended to
                   be forward-looking plans that connect long-term strategic issues with current
                   activities, goals, and results. Each CSS will contain (1) a description of the
                   country’s political, economic, and trade environment; (2) an analysis of
                   issues, trends, and impending changes within the country that impact U.S.
                   agricultural interests; (3) an identification of market opportunities; and (4) a
                   statement of strategy and goals – both long and short-term – that link to the
                   USDA and FAS strategic plans. The CSSs were prepared on a test basis for
                   2006, with full implementation scheduled for 2007.
USDA/OIG-A/50601-12-At                                                                     Page 8
                   The CSSs provide useful strategic planning at the country level and, in
                   conjunction with the UES, can be valuable tools in an overall strategic
                   planning process. However, each CSS targets only a single country and we
                   found that for 2006, only 73 CSSs were submitted by 80 foreign posts
                   covering about 160 countries. An agency official stated that because this
                   process was still being phased in during 2006, some countries that would
                   otherwise be targeted for CSS were omitted. For 2007 and after, the official
                   stated that the foreign posts should be preparing CSS for each country in
                   which they plan “significant activities.” He stated that this should, for
                   instance, include any country with which the United States has a Free Trade
                   Agreement. However, the decision of whether to do a CSS would still rest
                   with the officials at the posts themselves.

                   The CSSs are strategic tools at the country level, but do not constitute a
                   global strategy by themselves. A management official we interviewed stated
                   that the CSSs are a part of the process that participants and FAS divisions
                   will use to prepare and evaluate the UES, but agreed that there is currently no
                   process in place to analyze and evaluate them above the level of the
                   individual FAS divisions. Another official stated that no decisions had been
                   made as to where these documents will be sent within FAS Headquarters
                   after the reorganization; it was possible that they might be routed to the
                   individual country desks. This official stated that in the future, the country
                   desks might combine country reports to create regional trade strategies; at
                   present, however, there is no process in place to analyze the CSSs and
                   prioritize export opportunities and challenges on a global level, or to ensure
                   that strategies are prepared for each country that either is, or may become, a
                   significant trading partner with the United States.

                   Strategic Planning Processes

                   The 2002 Farm Bill required that the GMS fulfills three functions. Two of
                   these, the identification of opportunities for increasing agricultural exports
                   and the removal of barriers to overseas trade, could potentially be addressed
                   in part by the UES and the CSS. However, they could be an effective
                   strategic planning tool in addressing the Farm Bill goals only if FAS can
                   assure that trade opportunities are identified for “countries of interest,” and
                   only if a process exists to evaluate and prioritize the various country and
                   participant strategies worldwide. Presently, no such business process exists
                   within FAS. The third requirement (that of ensuring that the Department’s
                   resources, programs, and policies are coordinated with those of other
                   Departments) is not addressed by the UES. Although one official stated that
                   the foreign posts had been asked to tie their CSS planning into both the State
                   Department and the USDA strategic planning processes, this responsibility is
                   not centralized, but rather is dispersed between 80 foreign posts across the
                   world.
USDA/OIG-A/50601-12-At                                                                    Page 9
                                                                In recent years, many foreign trading competitors have capitalized on the
                                                                growing worldwide demand for agricultural products and have experienced
                                                                dramatic growth in their agricultural exports. For instance, between 1990 and
                                                                2005, China’s agricultural exports increased by 185 percent, while those of
                                                                Japan, Canada, and Mexico increased by 82 percent, 84 percent, and
                                                                267 percent, respectively. In comparison, the dollar value of U.S. agricultural
                                                                exports grew during this period by 39 percent.

                                                                Between 2000 and 2003, the EU’s exports increased by 33 percent, as
                                                                compared to a 7-percent increase for the United States. In 1990, the U.S.
                                                                market share was 14.3 percent; by 2005, it had declined to 9.7 percent.6
                                                                Therefore, while the dollar value of U.S. agricultural exports rose by
                                                                39 percent, from $59.4 billion in 1990 to $82.7 billion in 2005, during the
                                                                same period, the nation’s global market share declined by 32 percent. The
                                                                following table illustrates these diverging trends.


                                                                   U.S. Exports and Share of Global Agricultural Markets
                                                                           (Millions of Dollars and Percentages)

                                                        90000                                                                             25.00%

                                                        80000




                                                                                                                                                     Percent of Global Market Share
                        Dollar Value of U. S. Exports




                                                        70000                                                                             20.00%

                                                        60000
                                                                                                                                          15.00%
                                                        50000
                                                        40000
                                                                                                                                          10.00%
                                                        30000

                                                        20000                                                                             5.00%
                                                        10000

                                                           0                                                                              0.00%
                                                                       1990            2000             2004               2005

                                                                                 Trade Value     Percent of Market Share




                                                                Subsequent to the 2001 through 2005 strategic plan, FAS officials dropped
                                                                the measurable goal of recapturing the 22-percent global market share held
                                                                by the United States in 1984; thereafter, the agency has used primarily the
6
  The U.S. share of world exports for 2005 was 9.7 percent according to the WTO’s, International Trade Statistics, 2005 – Trade by Sector, 2006, Table
IV.8, “Leading exporters and importers of agricultural products, 2005.”

USDA/OIG-A/50601-12-At                                                                                                                      Page 10
                    dollar value of the nation’s agricultural exports to measure the success of its
                    export promotion programs. However, when Congress established the
                    requirement for an Agricultural Export Promotion Strategy under the 1996
                    Farm Bill, it specified that this strategy would have two goals – to increase
                    the value of U.S. agricultural exports each year, and to increase the value of
                    U.S. agricultural exports each year at a faster rate than the rate of increase in
                    the value of overall world export trade in agricultural products (i.e., the
                    nation’s market share). These goals, which were to apply both to overall
                    exports and to exports of high-value and value-added agricultural products,
                    are incorporated into Title 7 U.S.C. Section 5603 (b).

                    An FAS management official stated that the agency’s goal of regaining the
                    1984 market share was changed because prevailing global circumstances had
                    made this impossible. He stated that at the time Congress drafted its
                    legislation which made increased market share a goal, the large increases in
                    agricultural exports by our foreign competitors had not been foreseen. He
                    stated that agency officials had not consulted with Congress on this issue,
                    and he had not been aware that this goal was still cited in the public law.
                    While we agree that global trends cannot always be foreseen, we also
                    believe that a strategic planning process that consolidates and analyzes the
                    divisional reviews and the CSS could increase FAS’ ability to identify
                    promising markets.

                    With the UES and the CSS, FAS has the beginnings of a comprehensive
                    strategy but needs to engineer a process to coordinate and prioritize them
                    into regional and global strategic plans to increase the nation’s
                    competitiveness as a worldwide agricultural exporter. FAS also needs to
                    incorporate into this process any other strategic planning information that
                    may be available in addition to the UES and the CSS. In the long term, we
                    believe that FAS – in consultation with Congress – needs to analyze and
                    reassess its strategic goals and marketing strategies as a whole in order to
                    regain, to the extent possible, U.S. competitiveness in global agricultural
                    exports.

Recommendation 1

                   Develop and implement processes to integrate the strategic information
                   contained in the UES and in the CSS documents, as well as the analyses now
                   performed within the divisions of FAS’ Office of Trade Programs, and to use
                   these as a basis for formulating marketing strategies at a worldwide level.




USDA/OIG-A/50601-12-At                                                                     Page 11
                   Agency Response.

                   In their response, FAS officials stated that Congress and the Secretary have
                   specified that the FAS Administrator and agency managers have the authority
                   and prerogative to determine the methods by which the agency fulfills its
                   mission. They stated that FAS’ practices and procedures related to market
                   development are consistent with FAS and USDA strategic goals. They cited a
                   number of these practices, including the UES and the attendant process by
                   which participants’ applications are evaluated, as well as their efforts to
                   encourage participants to increase their strategic planning.

                   The officials noted that FAS has recently completed a comprehensive
                   reorganization that shifts resources to address critical needs in the area of
                   market access, trade negotiation and capacity building. As part of this
                   reorganization, FAS has established a new Office of Country and Regional
                   Affairs that is coordinating a comprehensive strategic plan based on the new
                   CSS that will cover not only marketing but also the other critical areas of
                   market access, trade negotiation, capacity building, reporting and analysis.
                   Officials concluded that FAS will continue all these efforts already underway
                   to enhance coordination among and between industry partners, FAS overseas
                   offices and the Washington office staff, and other appropriate agencies to
                   expand market access and export opportunities for exporters of U.S. food and
                   agricultural products.

                   OIG Position.

                   Although OIG recognizes the value of the CSS and the other processes cited
                   by FAS officials, we maintain our position that these do not entirely fulfill
                   the functions of a GMS as outlined in the 2002 Farm Bill. Moreover, despite
                   these existing processes, FAS’ own statistics as well as those of the WTO
                   show a continued, long-term decline in the nation’s market share of global
                   agricultural exports. Documentation provided to us by FAS describes the
                   U.S. market share as the lowest in 30 years, due to “over reliance on slow
                   growth commodities, mature markets, and rising competition.” (emphasis
                   added) All of these are factors that a strategic planning process should
                   address. As a result, we question whether agency officials’ stated plan of
                   continuing the efforts already underway will be effective in reversing this
                   long-term trend. To reach management decision, FAS needs to provide us
                   either with a plan, including timeframes, to implement the recommendation,
                   or an alternative action that would address the issue of declining market
                   share.

Recommendation 2

                   Perform a long-term analysis of FAS’ strategic goals and global marketing
                   approach, including consultations with Congress and other Federal agencies,
USDA/OIG-A/50601-12-At                                                                 Page 12
                   to determine what strategies are needed to increase U.S. competitiveness in
                   global agricultural exports. Based on the results of this analysis, develop and
                   implement export strategies as needed.

                   Agency Response.

                   FAS officials stated that the agency maintains a constant state of consultation
                   with Congress on virtually every aspect of the agency’s operations, including
                   its mandate to support the export of U.S. food and agricultural products.
                   They also noted FAS’ working relationships with other agencies, including
                   the Office of the U.S. Trade Representative, the Department of State, the
                   USAID, and the Department of Commerce, as well as the regulatory agencies
                   in USDA that support FAS’ efforts to address foreign market access issues.

                   They noted that FAS has continued to review its overall strategic plan and
                   make adjustments as needed, citing the recent FAS reorganization as
                   evidence of this. They stated that there already is an effort underway to
                   integrate more fully FAS and industry market development efforts that goes
                   beyond marketing strategies to include comprehensive strategic planning on
                   market access, trade negotiation, capacity building, reporting, and analysis.

                   OIG Position.

                   In our discussions with agency officials prior to the exit conference, they
                   stated that no decisions had yet been made as to how the various planning
                   processes, such as the UES and CSS, would be utilized above the division
                   level following the reorganization. The agency’s plans as described above –
                   for a comprehensive strategic planning process that includes market access,
                   trade negotiation, capacity building, reporting, and analysis may address our
                   recommendation, but only if the agency’s plans also address how these
                   planning documents will be used on a comprehensive, global basis. To reach
                   management decision, FAS needs to provide us with a detailed plan for
                   implementing a strategic planning process on a global basis, as well as
                   timeframes for its implementation. The response should also specify when
                   agency officials will communicate these plans to Congress.




USDA/OIG-A/50601-12-At                                                                   Page 13
Finding 2          FAS Needs To Implement Consistent Definitions of High-Value
                   and Processed Products In Its Export Credit Programs

                   Although FAS officials reported that they had achieved the 2002 Farm Bill’s
                   mandate to direct at least 35 percent of the agency’s export credit dollars to
                   high-value and processed products, we found that this determination was
                   based on product classifications that were inconsistent or were not based on
                   existing definitions. We attributed this to the fact that neither the 1996 nor the
                   2002 Farm Bills contained specific guidance as to what constituted a high-
                   value or processed product, as opposed to standard or bulk commodities.
                   Depending on which definitions are used, the actual percentage of export
                   credit dollars that supported high-value and processed products in FY 2003 –
                   which FAS reported as 35 percent – may have actually been as high as
                   59 percent or as low as 24 percent. As a result, there is reduced assurance that
                   Congress’ intent to target these products is actually being met.

                   The 1996 Farm Bill established an “Agricultural Export Promotion Strategy”
                   to encourage the maintenance, development, and expansion of export markets
                   for U.S. agricultural commodities and related products. That strategy required
                   that FAS increase credit guarantees for exports of American processed and
                   high-value commodities to 35 percent of the total amount of credit guarantees
                   issued for a given fiscal year. At the latest, FAS was required to meet this
                   target by FY 2000. The 2002 Farm Bill again required the 35-percent
                   benchmark and required that it be maintained through 2007.

                   FAS officials did not actively monitor compliance with the 35-percent
                   requirement, but the computations that they provided at our request for
                   FY 2003 showed that the requirement had been met. However, we noted that
                   two commodities, rice and cotton, were included in the category of high-
                   value and processed products despite the fact that both of these commodities
                   are classified along with wheat, soybeans, and other coarse grains, as bulk
                   agricultural products in FAS’ Bulk, Intermediate, and Consumer-Oriented
                   reports. Had these been classified as bulk commodities in FAS’
                   computations, the percentage of export credit funds supporting high-
                   value/processed products would drop to 22 percent.

                   FAS officials maintained that both cotton and rice should be considered
                   processed (although not high-value) products because they cannot be
                   marketed without some degree of processing after harvest. Cotton, for
                   instance, must be “ginned” to remove the seeds and then baled. Rice is not
                   edible until the hulls are removed from the grains. We noted, however, that
                   under this definition other agricultural commodities – such as corn – could


USDA/OIG-A/50601-12-At                                                                     Page 14
                                    also be considered as “processed.” 7 However, in FAS’ computations, corn
                                    was classified as an unprocessed commodity for FY 2003. We noted also that
                                    in its October 2005 announcement of the commodities eligible for export
                                    credit guarantees, FAS included cotton, rice, and corn as “standard” rather
                                    than high-value or processed agricultural products.

                                    ERS’ website contained the following discussion regarding the classification
                                    of agricultural products:

                                           Food trade is often categorized based on the level of processing:

                                           •   Traditional bulk commodities such as wheat, rice, and corn;
                                           •   Horticultural products such as fresh fruits and vegetables;
                                           •   Semi-processed products such as flour and oils; and
                                           •   Processed food products such as pasta and prepared meats.

                                           Horticultural, semi-processed, and processed products are
                                           considered high-value products. Unlike bulk commodities, high-
                                           value products are often ready to eat and are generally more
                                           perishable by nature. These characteristics make high-value
                                           products subject to greater quality and safety scrutiny compared
                                           with bulk agricultural commodities.

                                    We requested that the Office of the General Counsel (OGC) research the
                                    legislative history for a legal definition of high-value and processed products.
                                    OGC found that there was relevant statutory language regarding export credit
                                    guarantees in Section 709 of the FREEDOM Support Act of 1992. 8 The
                                    House Conference Report accompanying the Act provided the following
                                    definitions:

                                           The committee of conference intends that the term ‘high-value
                                           agricultural product’ means an agricultural commodity the value
                                           of which, on a per-unit or equivalent volume basis, is substantially
                                           higher than the value of bulk or raw agricultural commodities,
                                           such as grains or oilseeds. The term includes, but is not limited to
                                           fresh, chilled, or frozen meats, fish (without regard to whether
                                           such fish are harvested in aquacultural operations), dairy cattle,
                                           fruits and vegetables, eggs, breeder stock, plant seeds, and
                                           tobacco. (1992 U.S. Code Cong. and Adm. News, p. 2813).

                                           The committee of conference intends that the term ‘processed
                                           agricultural product’ means a product derived from a bulk or raw

7
  Corn is removed from the husks and separated from the cob by machine during harvest. The corn must then be machine dried to reduce its moisture
content before it is ready for export.
8
  P.L. 102-511, Freedom for Russia and Emerging Eurasian Democracies and Open Markets Support Act of 1992 (FREEDOM Support Act). Section
709(a)(2) of that act first added sub-section 202(k) to the currently applicable Agricultural Trade Act of 1978, as amended.

USDA/OIG-A/50601-12-At                                                                                                                   Page 15
                         agricultural commodity which, as a result of the application of
                         human labor, the use of machines, or other factors involved in a
                         manufacturing process, is increased in value and made more
                         appropriate for human consumption or use. Such term includes,
                         but is not limited to livestock products, poultry products, fish
                         products (without regard to whether such fish are harvested in
                         aquacultural operations), dairy products, peanut products, wheat
                         flour, milled rice, refined sugar, vegetable oil, processed baby
                         foods, and prepared, preserved, canned and other processed food
                         products.

                   OGC concluded that rice, because it is specifically mentioned in the
                   1992 report, should be regarded as a processed product, and we concurred
                   based on the above citations. Including rice in FAS’ 2003 computation would
                   increase the percentage of export credit guarantees supporting high-
                   value/processed products from 22 to 24 percent. The OGC opinion also noted
                   that cotton, while not specifically mentioned, does require the “application of
                   human labor” and “the use of machines” to make it saleable after harvest, and
                   thus also fits the definition of a processed product. While this is true, other
                   commodities such as corn also require a degree of processing, and yet are
                   classified as “standard” commodities by FAS.

                   Depending on how such products are classified, they could greatly affect the
                   percentage of export credit guarantees that are reflected as supporting high-
                   value and processed products in any given year. OIG reviewed FAS’
                   calculations for the 35-percent target for FYs 2003 through 2005. We found
                   that FAS had not included breeding cattle and swine in its calculations for
                   high-value products for FY 2003, even though these were specifically
                   referenced as such in the conference report accompanying the 1992
                   legislation. Nor were fish or plant seeds classified as high-value products in
                   FAS’ computations for FY 2005. Breeding swine and potatoes were
                   classified as bulk commodities by FAS in FY 2003, but as processed or high-
                   value commodities in FY 2005. Depending on how each of these various
                   commodities was classified between the high-value/processed and
                   standard/bulk categories, the percentage of export credit dollars for these
                   years could have been reflected as high as 59 percent or as low as 24 percent.

                   The 2002 Farm Bill also supported the export of processed and value-added
                   products through the FMD. This program, which uses CCC funds to aid in
                   the creation and expansion of long-term export markets for U.S. agricultural
                   products, received funding totaling $34.5 million per year for FY 2002
                   through 2007. The Bill required FAS to submit an annual report to Congress
                   describing the amount of funding being provided, the types of programs
                   funded, the value-added products targeted, and the foreign markets developed
                   for those products. However, we found that no reports were submitted to
                   Congress following the initial report provided to Congress in April 2003. An
USDA/OIG-A/50601-12-At                                                                   Page 16
                   FAS management official stated that the official responsible for the report
                   had been reassigned, and the reports had been overlooked subsequent to this.
                   FAS needs to ensure that these reports are timely prepared and submitted so
                   that Congress can evaluate the agency’s use of the appropriated FMD funds.

                   Congress recognized the growing importance of high-value and processed
                   products and sought to support U.S. exports of these products through its
                   1996 and 2002 Farm Bill legislation, including the Export Credit Guarantee
                   Program. However, without clear and consistent definitions of what
                   constitutes a high-value or processed product, there is reduced assurance that
                   FAS’ export guarantees will in fact meet Congress’ intent. As noted by FAS
                   officials, these definitions would not directly affect the allocation of export
                   credit guarantees as long as there are available funds in excess of those
                   applied for and approved. However, even in years where excess funds are
                   available, FAS should monitor export credit trends for the high-value and
                   processed products. A disproportionately small percentage of high-value and
                   processed products supported by export credit guarantees could reveal a need
                   for additional outreach efforts by FAS to attract such commodities for its
                   export credit guarantee program.

Recommendation 3

                   In consultation with the Department and Congress, review and clarify
                   definitions to be used defining which commodities should be classified as
                   bulk or standard, high value, or processed for purposes of export credit
                   guarantees and other programs.

                   Agency Response.

                   FAS officials stated that, beginning in 1999, the agency began moving away
                   from programming individual commodity allocations under the credit
                   guarantee programs, and now provides that country or regional allocations
                   are, in most cases, available to the entire General Sales Manager list of
                   eligible commodities. They believed that by not differentiating programming,
                   this process is consistent with Section 202 (k)(2) of the Agricultural Trade
                   Act of 1978, which stipulates that the 35-percent mandate applies only if it
                   would not require a reduction in the total amount of guarantees issued.
                   Targeting specific sectors in order to conclusively reach a 35-percent
                   threshold runs the risk of violating this provision of law and thwarting
                   support for all agricultural exports. They believed that the OGC
                   memorandum to OIG, dated August 29, 2006, further established that the
                   commodities used by FAS to calculate compliance are correct and that there
                   should be no question that compliance was achieved. After review of OGC’s
                   determination, they did not believe that consultation with Congress is needed
                   since OGC’s research had found specific relevant legislative history in the
                   House Conference Report that accompanied the FREEDOM Support Act.
USDA/OIG-A/50601-12-At                                                                   Page 17
                   However, FAS officials agreed that there is need for clarification in
                   definitions across programs lines and will endeavor to review and clarify
                   them within the Department.

                   OIG Position.

                   Contrary to FAS’ response, our finding did not question the manner in which
                   the agency currently manages its allocations under the commodity export
                   programs, nor are we recommending that agency officials reduce their
                   allocations of export credit funds for bulk and standard commodities to
                   achieve a 35-percent allocation for high-value and processed commodities.
                   However, regardless of the process by which funds are allocated, agency
                   officials are still responsible for meeting the requirement of the 2002 Farm
                   Bil, and thus would have to target 35 percent of their export credit funds to
                   high-value and processed products if sufficient funding applications for these
                   are received.

                   This may not be possible if FAS officials do not use standardized definitions
                   to differentiate high-value/processed products from bulk/standard products.
                   As noted in our finding, even the definitions contained in the 1992
                   FREEDOM Support Act were inconsistently applied and in some cases, the
                   same commodities were classified differently from year to year. It is this
                   condition that our recommendation was intended to address. FAS officials
                   have expressed their agreement that clearer definitions are needed. We also
                   maintain that Congress needs to be consulted as part of this process, so that
                   decisions can be made as to whether the 15-year old definitions in the 1992
                   FREEDOM Act need to be updated or amended.

                   To reach management decision, FAS needs to provide a further response that
                   details their plan, including timeframes, to standardize and clarify their
                   definitions of high-value and processed products in the export credit
                   programs.

Recommendation 4

                   Institute procedures to ensure that the required reports on the FMD
                   Cooperator Program are timely prepared and submitted to Congress.

                   Agency Response.

                   In their response, agency officials stated that they will institute procedures to
                   ensure that the remaining required report on the Cooperator Program is timely
                   prepared and submitted to Congress.



USDA/OIG-A/50601-12-At                                                                    Page 18
                                     OIG Position.

                                     The response indicates that only one more report to Congress is required, but
                                     the 2002 Farm Bill required annual reporting to Congress without specifying
                                     an ending date. To reach management decision, FAS needs to provide us with
                                     timeframes for when the cited procedures will be in place and also to clarify
                                     whether the procedures will call for ongoing annual reports, as specified in
                                     the 2002 Farm Bill.




Finding 3                            FAS Works to Improve Its Food Aid Performance Measures and
                                     Performance Data Reporting, But Improvements Are Still Needed

                                     Although the 2002 President’s Management Agenda highlighted the need for
                                     FAS to evaluate the success of its food aid programs in terms of their actual
                                     benefits, new outcome-based performance measures to accomplish this had
                                     not been incorporated into the agency’s reporting process under the
                                     Government Performance and Results Act of 1993 (GPRA). FAS officials
                                     attributed this to the difficulty of designing performance measures that can
                                     assess program outcomes, when these are affected by multiple factors outside
                                     the agency’s control. Also, FAS has not completed developing an automated
                                     system to accumulate, summarize and report program performance data. As a
                                     result, FAS’ reports under GPRA are not yet able to adequately present the
                                     agency’s accomplishments regarding its programs, or demonstrate that the
                                     agency is achieving the goals established by authorizing legislation.

                                     During the 1990s, members of Congress became increasingly concerned
                                     about waste and inefficiency in Federal programs that undermined the
                                     confidence of the American people in the Government’s ability to adequately
                                     address public needs. To address these concerns, Congress passed GPRA, 9
                                     whose purpose was to improve the management, efficiency, and effectiveness
                                     of Federal programs by establishing a system for agencies to set goals for
                                     program performance and measure results.

                                     The 2002 President’s Management Agenda required that foreign food aid
                                     programs be subject to an analysis of their benefits, costs, and performance to
                                     determine how they are meeting their priorities, and how well they are
                                     accomplishing the Administration’s primary goal of directly feeding



9
  P.L.103-62. GPRA required Federal agencies to develop strategic plans, annual performance plans, and reports; to express performance goals in an
objective, quantifiable, and measurable form; and to describe the means the agency will use to verify and validate its performance data. After OMB’s
PART review in FY 2004, GPRA’s annual performance plan was replaced by a performance budget, linking an agency’s strategic goals with its related
annual performance goals and with the costs of the specific activities contributing to achieving those goals.

USDA/OIG-A/50601-12-At                                                                                                                    Page 19
                                     genuinely hungry populations. 10 Thus, FAS’ food aid programs have three
                                     objectives for which program performance must be measured: (1) meeting
                                     global food security challenges, (2) improving literacy and promoting
                                     education, and (3) increasing economic growth and trade capacity in
                                     developing countries.

                                     GPRA shifted the evaluation and measurement of program performance away
                                     from output towards outcome. By stating, for instance, how many metric tons
                                     of commodities it shipped during a given year, or how many grant
                                     agreements it signed, FAS can state with relative ease its programs’ output.
                                     Determining the outcome resulting from shipping quantities of food to
                                     foreign countries is more complicated because it requires that FAS report
                                     how nutritional health and literacy in those countries were improved. 11 Also,
                                     improvements in donor countries’ agricultural infrastructure and economic
                                     development resulting from grant activities funded by the agency’s FFP
                                     Program 12 have yet to be measured. Because such important indicators of
                                     program success are affected by many factors beyond FAS’ control—
                                     including wars, international economic conditions, and natural disasters—
                                     isolating the precise outcome of foreign food aid represents a challenge. Also,
                                     finding a common performance measure for food aid programs with multiple
                                     objectives can be difficult. In addition, USDA’s food donations in recent
                                     years have been relatively small compared to those administered by USAID.

                                     In FY 2004, OMB developed the PART as a diagnostic tool to evaluate
                                     Federal programs. PART was used to review 234 Federal agency programs,
                                     including the FAS and USAID food aid programs. OMB concluded that
                                     FAS’ strategic planning and performance measures for its food aid programs
                                     were inadequate and that coordination between FAS and USAID was needed
                                     on program performance measures, evaluation, monitoring, and eligibility
                                     criteria. It found that FAS needed to develop performance measures that link
                                     to the long-term outcome goals of food security, as well as the agency’s
                                     strategic goals and budget. OMB repeated its PART review during the
                                     FY 2006 budget process and upgraded FAS’ rating from inadequate to
                                     moderately effective based on the development of the Food Aid Targeting
                                     Effectiveness Ratio, which measures USDA food aid programs’ contribution




10
   Executive Office of the President, OMB, The President’s Management Agenda, FY 2002, Program Initiative 13, Reform of Food Aid Programs,
USAID, Department of State, USDA, page 67.
11
   Section 3107 of the 2002 Farm Bill established the McGovern-Dole International FFE and Child Nutrition Program to provide commodities to carry out
preschool and school food programs to improve food security, reduce hunger, and improve literacy and primary education. Other FAS food aid programs
include Section 416(b) donations and P.L. 480, also known as Food For Peace. P.L. 480 has three titles, each with a specific objective and serving
countries at particular levels of development. Title 1 of P.L. 480 is administered by USDA, while Titles II and III are administered by USAID.
12
   The FFP Program, authorized by the FFP Act of 1985, provided for the donation or credit sales of U.S. commodities to developing countries and
emerging democracies to support democracy and the expansion of private enterprise. To date, all food aid under this program has been through donation.

USDA/OIG-A/50601-12-At                                                                                                                    Page 20
                                    to the reduction in the number of the world’s hungry people by one-half by
                                    2015 13 . ERS assisted FAS in developing the ratio.

                                    The Food Aid Targeting Effectiveness Ratio is a long-term performance
                                    measure intended to gauge the effectiveness of USDA’s food aid programs in
                                    improving food security in low-income countries. It measures the
                                    effectiveness of USDA’s food aid programs in addressing the food
                                    distribution “gaps” in the most food-insecure countries. ERS calculates the
                                    ratio using its Food Security Assessment Model, which measures food
                                    security based on estimations of food gaps in 71 of the world’s poorest
                                    countries. Food gaps represent the difference between projected food
                                    availability and targeted food consumption.

                                    While the development of the Food Aid Targeting Effectiveness Ratio is a
                                    significant accomplishment by ERS and FAS to assess USDA’s performance
                                    in reducing world hunger, it is a measurement of success for only one of its
                                    programs’ objectives. The ratio does not, for instance, measure the
                                    achievements of the FFE Program in improving literacy and primary
                                    education in targeted countries. It also does not measure the FFP Program’s
                                    success in improving countries’ agricultural infrastructure, economic
                                    development, or trade capacity building. The agency needs to continue to
                                    work on new performance measures to gauge its success in achieving the
                                    objectives established by the authorizing legislation for these programs.

                                    In addition to improving its performance measures, FAS has also been
                                    working to improve its systems for accumulating and reporting data on its
                                    food aid programs. FAS officials continue to work with their counterparts at
                                    USAID to determine how to provide more responsive information to OMB
                                    on the status and results of food aid projects. A major project of FAS’
                                    2002 Business Process Re-Engineering study was to design an interagency
                                    FAIS with common data elements. The new system will be used by all U.S.
                                    government agencies dealing with food aid – USDA (FAS and the Farm
                                    Service Agency), USAID, and the Department of Transportation, Maritime
                                    Division. It will contain program budgets, project proposals and agreements,
                                    commodity and freight purchases, commodity shipments, and payments. FAS
                                    has already developed a Performance Management and Evaluation Module
                                    that will become part of FAIS, which contains semi-annual logistics and
                                    monetization reports from PVOs and quarterly-financial reports. Eventually,
                                    FAS plans to implement a PVO-reporting module that will capture and report
                                    on performance data throughout the food aid process.

                                    However, these new systems are not yet completed or implemented. At the
                                    time our fieldwork ended, FAS did not have a database that was capable of

13
  In 1996, member countries held a World Food Summit in Rome. Following the summit, in September 2000, the member countries adopted the United
Nations Millennium Declaration goal to reduce the number of the world’s hungry people by one-half by 2015. USDA also adopted this goal for its food
aid programs.

USDA/OIG-A/50601-12-At                                                                                                                  Page 21
                   adequately tracking or accumulating performance data to be used in GPRA
                   reports.

                   Before FAS will be able to provide a comprehensive overall assessment of its
                   food aid programs’ success in achieving agency goals and the objectives of
                   the food aid programs’ authorizing legislation, agency officials will need to
                   complete the outcome-based performance measures and the database system
                   for accumulating, summarizing and reporting the programs’ performance
                   data.

Recommendation 5

                   Complete and adopt uniform outcome-based performance measures to assess
                   whether FAS’ programs are achieving the objectives of their authorizing
                   legislation.

                   Agency Response.

                   FAS officials stated that beginning in April 2007, the agency will work with
                   cooperating FFP and McGovern-Dole Program sponsors to identify potential,
                   practical uniform outcome-based performance measures for various types of
                   food aid interventions. Current procedures for collecting data and reporting
                   also will be reviewed. By May 2008, FAS will announce a list of outcome
                   measures to be adopted. Beginning in FY 2009, these measures will be
                   included in food aid agreements.

                   OIG Position.

                   We concur with FAS’ planned corrective actions. To reach management
                   decision, FAS needs to provide us with copies of the outcome performance
                   measures once these are developed, along with timeframes for their
                   implementation.

Recommendation 6

                   Complete and implement the planned FAIS for collecting program
                   performance data and the PVO-reporting module to summarize and report on
                   the food aid programs’ achievements toward FFE and FFP legislative
                   objectives and goals. If necessary, seek additional funding from Congress to
                   accomplish this.




USDA/OIG-A/50601-12-At                                                                 Page 22
                   Agency Response.

                   FAS officials stated that they have made substantial progress on FAIS and
                   hope to secure funding to start building the system in FY 2008. They also
                   stated that they hope to have the system completed for implementation by
                   January 2009.

                   OIG Position.

                   We concur with the proposed actions. To reach management decision, FAS
                   needs to provide clarification as to whether the dates cited in the response are
                   the established timeframes. We also need clarification as to whether FAS has
                   made attempts to secure funding for completion of the FAIS, and the
                   alternatives being considered if funding levels are less than anticipated.




USDA/OIG-A/50601-12-At                                                                    Page 23
Scope and Methodology
                   The audit work primarily focused on the activities of FAS to implement the
                   requirements of the Trade Title of the 2002 Farm Bill and the President’s
                   Management Agenda. Since FAS works closely with APHIS on issues
                   involving biotechnology and on strategies to address technical barriers to
                   trade, we also interviewed officials of that agency. We also interviewed a
                   senior official of USAID in charge of the Food for Peace Program, regarding
                   USAID’s and FAS’ efforts to address issues identified in the President’s
                   Management Agenda.

                   Our fieldwork was conducted at FAS and APHIS Headquarters in
                   Washington, D.C., from January to May 2004. We monitored developments
                   impacting identified issues through September 2006.

                   To accomplish our audit objectives, we:

                         •   interviewed responsible senior FAS management officials of Export
                             Credits, Commodity Marketing Programs (now the Office of Trade
                             Programs), International Trade Policy, and other divisions and areas;

                         •   assessed the adequacy of internal controls, policies, and procedures
                             used by FAS to implement the 13 requirements of the 2002 Farm Bill,
                             and also assessed the impact of changes to both new and existing
                             programs (see exhibit A);

                         •   reviewed FAS’ management controls over the process of monitoring
                             food aid grants;

                         •   reviewed FAS’ efforts to create a GMS to address the new market
                             realities of the 21st century;

                         •   reviewed OMB’s PART assessments of FAS’ food aid programs and
                             interviewed FAS and USAID officials concerning the assessments
                             and efforts made by the two agencies to address identified issues;

                         •   interviewed responsible officials of APHIS’ Trade Support Team and
                             BRS;

                         •   reviewed applicable legislative history, laws, regulations, Government
                             Accountability Office reports, prior OIG reports, and agencies’
                             internal reviews, including the Federal Managers’ Financial Integrity
                             Act reports;

USDA/OIG-A/50601-12-At                                                                    Page 24
                         •   examined performance measure data related to the food aid and trade
                             programs in the agencies’ annual GPRA plans; and

                         •   interviewed officials of PVOs operating food aid programs in
                             Guatemala, Honduras, and Tajikistan.

                   We conducted our audit in accordance with generally accepted government
                   auditing standards.




USDA/OIG-A/50601-12-At                                                                 Page 25
Exhibit A – FAS Implementation of Requirements of FY 2002 Farm Bill
                                                                                                       Exhibit A – Page 1 of 7


     International Food and Trade Programs Reformed or Created by the 2002 Farm Bill
Program
Provisions    Farm Bill Reform(s)       Audit Results           Recommendations
(1) General     Programs should encourage          FAS awarded multi-country
provisions.     approval of multi-year and         agreements. For FY 2005,
                multi-country agreements and       FAS awarded one multi-
                are expanded to include all        year FFP agreement and
                eligible organizations, not just   instituted multi-year
                PVOs. Each program is to           shipments for existing
                streamline, improve, and           416 (b) agreements. For
                clarify the application,           FY 2006, the agency
                                                                                                   NONE
                approval, and implementation       committed $17 million for
                process, and to report             multi-year agreements with
                progress to congressional          a maximum of 3 years for
                committees.                        shipments of commodities.
                                                   In addition to PVOs, FAS
                                                   awarded agreements to the
                                                   World Food Program of the
                                                   United Nations.
(2) Export      Extends the Export Credit          The 1996 and 2002 Farm          We recommend that, in consultation
Credit          Guarantee programs and             Bills did not include           with the Department and Congress, FAS
Guarantee       annual funding through 2007.       definitions of processed and    develop clear and consistent definitions
programs        Requires the Secretary and         high-value commodities.         to be used in defining which
facilitate      U.S. trade representative to       The only guidance came          commodities should be classed as
commercial      consult regularly with             from a 1992 House               bulk/standard, high value, or processed
sales of U.S.   Congress on multi-lateral          Conference report               for purposes of export credit and other
agricultural    negotiations at WTO and the        associated with the             programs.
products.       Organization for Economic          FREEDOM Support Act
                Cooperation and                    that provided food aid to
                Development. Continues             emerging Russian and
                requirement that not less than     Eurasian democracies. FAS
                35 percent of export credit        did not consistently apply
                guarantees issued be used to       the 1992 guidance in
                promote exports of processed       computing Congress’ 35-
                or high-value agricultural         percent target for supporting
                products. Extends repayment        high-value and processed
                terms for the Supplier Credit      products. (See Finding 2.)
                Guarantee program from             Export Credits had not
                180 to 360 days.                   revised the Supplier Credit
                                                   Guarantee program
                                                   regulations to include the
                                                   360-day repayment term
                                                   due to lack of demand and
                                                   appropriation funding.
                                                   Also, a new WTO
                                                   agreement eliminated the
                                                   360-day requirement.




USDA/OIG-A/50601-12-At                                                                                            Page 26
Exhibit A – FAS Implementation of Requirements of FY 2002 Farm Bill
                                                                                                     Exhibit A – Page 2 of 7



   Program
   Provisions           Farm Bill Reform(s)                   Audit Results                   Recommendations
(3) FMD helps         Authorizes use of CCC funds      In April 2003, FAS submitted       We recommended that FAS
maintain and          to support the program and       the first required FMD report to   prepare and submit the required
develop foreign       increases funding to             Congress reporting that in         annual reports.
markets for U.S.      $34.5 million. Requires          FY 2002, the $34.5 million in
agricultural          continued emphasis on            FMD funds had been allocated
commodities,          exporting value-added            to 23 participants. Thirty
primarily through     products to emerging markets.    percent, approximately
trade associations.   The Department is required to    $10.2 million had been used to
                      submit a report to Congress      promote value-added
                      annually describing the          agricultural products around the
                      amount of funds provided, the    world. The FMD funds had
                      types of programs funded, the    been used to support value-
                      value-added products targeted,   added products in numerous
                      and the foreign markets          foreign emerging markets
                      developed for those products.    including China, Korea,
                                                       Taiwan, Southeast Asia, the
                                                       Middle East, Africa, and the
                                                       Caribbean Basin. However,
                                                       FAS had not submitted any
                                                       more of the required reports to
                                                       Congress since the April 2003
                                                       report. (See Finding 2.)
(4) Online            USDA shall maintain a            FAS has created a website
Exporter              website that provides            identified as FAS Online to
Assistance            comprehensive information to     assist exporters and potential
Initiative.           assist exporters and potential   exporters of U.S. agricultural
                      exporters of U.S. agricultural   commodities. Users can find
No similar            commodities. No funds are        information on regulations and
provisions in 1996    authorized.                      Federal laws that impact an
                                                                                                      NONE
Farm Bill.                                             export transaction. FAS
                                                       officials continue to improve
                                                       the website. They have added a
                                                       new link, which has applicable
                                                       forms and applications, and
                                                       navigational features to make
                                                       the website more user friendly.




USDA/OIG-A/50601-12-At                                                                                          Page 27
Exhibit A – FAS Implementation of Requirements of FY 2002 Farm Bill
                                                                                                         Exhibit A – Page 3 of 7


   Program
   Provisions           Farm Bill Reform(s)                        Audit Results                     Recommendations
(5) GMS. The          Mandates preparing a long-        FAS has not completed its GMS and            We recommended that
1996 Farm Bill        range agricultural trade          submitted it to Congress as required.        FAS develop and
established and       strategy that identifies          Rather than implementing a centralized       implement processes to
“Agricultural         opportunities for growth in       global strategy, FAS supports the            combine all the
Export Promotion      exports; ensures that resource    country and regional market strategies       agency’s strategic
Strategy” to          programs and policies are         of the agency’s individual program           planning information as
expand export         coordinated with those of         participants. (See Finding 1.)               a basis for formulating
markets for U.S.      other agencies; and removes                                                    market strategies at a
agricultural          barriers to trade in overseas                                                  worldwide level to
commodities. The      markets. Consultations with                                                    address the United
Secretary was         relevant congressional                                                         States’ declining market
required to           committees shall occur before                                                  share of global
annually identify     November 9, 2002, and every                                                    agricultural exports.
priority markets      2 years subsequently.
with the greatest
potential for
increasing exports.
The 2002 Farm
Bill built on the
1996 bill by
requiring a long-
range GMS.
(6) Export            Extends annual funding            The Department made a policy decision
Enhancement           through 2007 at the current       not to implement EEP funding except
Program (EEP)         funding level of $478 million     in rare cases. Although funding for the
provides funding to   per year. Expands definition      program is still available, in practice,
U.S. exporters to     of unfair trade practices to      the program has not operated since
help compete          include: (1) state trading        FY 2001. FAS and APHIS continue
against subsidized    enterprises; (2) unfair           their efforts to address unjustified trade
prices in specific    subsidies by foreign counties;    restrictions and SPS barriers and to
export markets.       (3) unjustified trade             enforce trade agreements.                            NONE
                      restrictions on new
                      technologies (e.g., labeling of
                      biotech products);
                      (4) unjustified SPS barriers;
                      (5) unfair rules on tariff-rate
                      quotas; and (6) failure of a
                      country to adhere to trade
                      agreements.




USDA/OIG-A/50601-12-At                                                                                              Page 28
Exhibit A – FAS Implementation of Requirements of FY 2002 Farm Bill
                                                                                                    Exhibit A – Page 4 of 7


   Program
   Provisions            Farm Bill Reform(s)                        Audit Results                 Recommendations
(7) P.L. 480, also     The 1996 Farm Bill authorized     FAS has been working in post-conflict
known as Food for      Title I agreements with private   zones since 1992 toward the U.S.
Peace, includes        entities in addition to foreign   Government’s strategic goals of
concessional sales     governments; modified             fostering regional stability, building
through Title I and    repayment terms for Title I       civil society, and democratic
donations and          credit including                  government institutions. FAS
grants through         (1) elimination of the            programs focus on agricultural sector
Titles II and III.     minimum repayment period of       development, scientific education, and         NONE
The Title II and III   10 years and (2) reduction of     international exchanges. FAS is
programs are           the maximum grace period          currently working as part of the U.S.
administered by        from 7 to 5 years. The            Government’s reconstruction efforts in
USAID.                 2002 Farm Bill reauthorized       Afghanistan, Iraq, Kosovo, Bosnia,
                       this program through 2007 and     Serbia, and Montenegro.
                       adds conflict prevention as a
                       program objective.
(8) George             Authorizes a program to           In FY 2003, FAS officials approved
McGovern-Robert        provide commodities and           21 project proposals for countries in
Dole International     financial and technical           Africa, Asia, Latin America, the
FFE and Nutrition      assistance for foreign            Middle East, Central Asia, and Eastern
Program.               preschool and school feeding      Europe. The sponsors of these selected
                       programs. The goal is to          proposals included PVOs and the
                       reduce hunger and improve         United Nations’ World Food Program.
                       literacy and nutrition programs   The new program replaces the Global
                       for pregnant and nursing          FFE Initiative Program that began as a
                                                                                                        NONE
                       women and for young               pilot program in FY 2001. More
                       children. Eligible recipients     recently during 2006, FFE assistance
                       include governments, PVOs,        was expected to reach $103 million and
                       cooperatives, and other           benefit approximately 2.4 million
                       entities. Provides $100 million   women and children through donations
                       of CCC funds to continue          of nearly 80,000 metric tons of
                       existing pilot projects and       commodities.
                       authorize the program in
                       subsequent years.




USDA/OIG-A/50601-12-At                                                                                         Page 29
Exhibit A – FAS Implementation of Requirements of FY 2002 Farm Bill
                                                                                                       Exhibit A – Page 5 of 7


   Program
   Provisions          Farm Bill Reform(s)                          Audit Results                  Recommendations
(9) Technical        New programs established to         As part of the new reorganization plan,
barriers to trade.   remove, resolve, or mitigate        FAS’ Office of Scientific and
No similar           SPS, and other technical            Technical Affairs will include an
provisions in the    barriers to trade.                  International Regulations and
FY 1996 Farm                                             Standards Division. The division will
Bill.                                                    include a WTO SPS Committee and
                                                         Enquiry Point Branch; a CODEX, OIE,
                                                         IPPC, MEA, and ISO Branch; and a
                                                         Foreign Regulations Branch. FAS staff
                                                         in these branches will work toward the
                                                         development of international food
                                                         standards and SPS regulations, and the
                                                         resolution of technical issues. The
                                                         Enquiry Point Branch will handle all              NONE
                                                         outgoing SPS notifications for the
                                                         United States, sending them to the
                                                         WTO SPS committee, and track
                                                         commitments by the U.S. and foreign
                                                         governments to address SPS and
                                                         technical issues. FAS works closely
                                                         with APHIS to address technical
                                                         barriers to trade. APHIS officials also
                                                         work closely with third world countries
                                                         trying to establish regulatory
                                                         frameworks for imports of
                                                         U.S. agricultural products being
                                                         donated as food aid.
(10) Biotechnology   Addresses regulatory non-           FAS and APHIS formed biotech              We are not making
and agricultural     tariff barriers to the export of    groups, which deal specifically with      recommendations
trade program. No    U.S. agricultural commodities.      biotech related issues. The FAS group     related to biotechnology
similar provisions   Authorizes grants for public        has implemented several projects          trade issues as part of
in the 1996 Farm     and private-sector projects for:    dealing with quick-response               this audit. Findings and
Bill.                (1) quick-response                  intervention and other biotech related    recommendations, if
                     intervention regarding non-         issues. APHIS established BRS to be       applicable, will be
                     tariff barriers to U.S. exports     responsible for establishing a Federal    reported under OIG
                     involving issues of                 regulatory framework for the biotech      Audit No.
                     biotechnology, food safety,         agricultural area. It coordinates with    50601-0014-Te,
                     disease, or other SPS concerns      other Federal agencies and agricultural   “USDA's Role in the
                     and (2) developing protocols        groups to develop protocols on biotech    Export of Genetically
                     as part of bilateral negotiations   related issues. BRS also helps other      Engineered Agricultural
                     with other countries on issues      countries with trade capacity building    Commodities”.
                     such as animal health, grain        issues, establishment of regulations,
                     quality, and genetically            and provides instructions for
                     modified organisms.                 performing risk assessments. For
                     Program is authorized at            FY 2004, OMB allocated $2 million to
                     $6 million per year through         USDA to be dedicated to
                     2007.                               biotechnology.


USDA/OIG-A/50601-12-At                                                                                            Page 30
Exhibit A – FAS Implementation of Requirements of FY 2002 Farm Bill
                                                                                                      Exhibit A – Page 6 of 7


    Program
    Provisions            Farm Bill Reform(s)                       Audit Results                   Recommendations
(11) TASC - No           Establishes an export           The FAS Marketing Operations
similar provisions in    assistance program to address   Division officials approved
the 1996 Farm Bill.      unique barriers that prohibit   18 TASC projects in FY 2002 and
                         or threaten the export of       16 TASC projects in FY 2003.
                         U.S. specialty crops.
                         Provides for public and
                         private-sector projects and
                                                                                                          NONE
                         technical assistance to
                         address time-sensitive and
                         strategic issues of market
                         retention, market access, and
                         market expansion.
                         Authorized at $2 million a
                         year.
(12) Trade-related       If the Secretary determines     The 2002 Farm Bill required USDA to
programs in other        that AMS ceiling will be        develop a mechanism called the
titles: Uruguay          exceeded, the Secretary shall   “circuit breaker.” This mechanism
Round compliance.        to the maximum extent           requires the Secretary of USDA to
The Uruguay Round        practicable, adjust             ensure that the United States does not
Agreement on             expenditures to avoid           exceed its WTO limits. USDA has not
agriculture puts a       exceeding allowable levels.     developed any regulations for the
maximum allowable        Before making any               “circuit breaker.” One official said the
level on trade-          adjustments, the Secretary      Department received little guidance in
distorting domestic      shall submit a report to        the Farm Bill for how they should
support programs as      Congress describing the         implement this mechanism. Also, the
measured by the          adjustments to be made.         current AMS level is significantly
aggregate                                                below the $19.1 billion support ceiling          NONE
measurements of                                          and is projected to remain below that
support (AMS). The                                       level. Therefore, the circuit breaker
ceiling on the U.S.                                      mechanism has not been needed.
AMS support has
been $19.1 billon
since FY 2000, and
will continue to be at
this level until a new
WTO agreement is
reached. No similar
provisions were in
the 1996 Farm Bill.




USDA/OIG-A/50601-12-At                                                                                           Page 31
Exhibit A – FAS Implementation of Requirements of FY 2002 Farm Bill
                                                                                             Exhibit A – Page 7 of 7


   Program
   Provisions        Farm Bill Reform(s)                    Audit Results                  Recommendations
(13) Country-of-   Requires that meat, fish,     The FY 2004 appropriation bill
origin labeling.   produce, and peanuts be       delayed implementation of this
                   labeled with the country of   program, except for fish and shellfish,
                   origin, starting in 2004.     until September 30, 2006. Fish and
                                                 shellfish were to be implemented
                                                                                                 NONE
                                                 September 30, 2004. In November
                                                 2005, P. L. 109-97 delayed the
                                                 implementation of country of origin
                                                 labeling requirements until
                                                 September 30, 2008.




USDA/OIG-A/50601-12-At                                                                                  Page 32
Exhibit B – Agency Response
                              Exhibit B – Page 1 of 13




USDA/OIG-A/50601-12-At                    Page 33
Exhibit B – Agency Response
                              Exhibit B – Page 2 of 13




USDA/OIG-A/50601-12-At                    Page 34
Exhibit B – Agency Response
                              Exhibit B – Page 3 of 13




USDA/OIG-A/50601-12-At                    Page 35
Exhibit B – Agency Response
                              Exhibit B – Page 4 of 13




USDA/OIG-A/50601-12-At                    Page 36
Exhibit B – Agency Response
                              Exhibit B – Page 5 of 13




USDA/OIG-A/50601-12-At                    Page 37
Exhibit B – Agency Response
                              Exhibit B – Page 6 of 13




USDA/OIG-A/50601-12-At                    Page 38
Exhibit B – Agency Response
                              Exhibit B – Page 7 of 13




USDA/OIG-A/50601-12-At                    Page 39
Exhibit B – Agency Response
                              Exhibit B – Page 8 of 13




USDA/OIG-A/50601-12-At                    Page 40
Exhibit B – Agency Response
                              Exhibit B – Page 9 of 13




USDA/OIG-A/50601-12-At                    Page 41
Exhibit B – Agency Response
                              Exhibit B – Page 10 of 13




USDA/OIG-A/50601-12-At                     Page 42
Exhibit B – Agency Response
                              Exhibit B – Page 11 of 13




USDA/OIG-A/50601-12-At                     Page 43
Exhibit B – Agency Response
                              Exhibit B – Page 12 of 13




USDA/OIG-A/50601-12-At                     Page 44
Exhibit B – Agency Response
                              Exhibit B – Page 13 of 13




USDA/OIG-A/50601-12-At                     Page 45
Informational copies of this report have been distributed to:

Administrator, FAS (4)
       ATTN: Audit Liaison Officer
Government Accountability Office (1)
Office of Management and Budget (1)
GAO-IAT
Office of the Chief Financial Officer (1)
       Director, Planning and Accountability Division
